                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     EPA Needs to Continue
                     to Improve Controls for
                     Improper Payment
                     Identification
                     Report No. 14-P-0171                    April 10, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                    Heriberto Ibarra
                                                        Janet Kasper
                                                        Doug LaTessa
                                                        Patrick McIntyre
                                                        Mary Anne Strasser




Abbreviations

AFR            Agency Financial Report
CDW            Compass Database Warehouse
CWSRF          Clean Water State Revolving Fund
CY             Calendar year
DWSRF          Drinking Water State Revolving Fund
EPA            U.S. Environmental Protection Agency
FY             Fiscal year
IPERA          Improper Payments Elimination and Recovery Act of 2010
IPERIA         Improper Payments Elimination and Recovery Improvement Act of 2012
OCFO           Office of the Chief Financial Officer
OIG            Office of Inspector General
OMB            Office of Management and Budget
PER            Program evaluation report
SOP            Standard operating procedure
SRF            State Revolving Fund



Hotline 	                                      Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact us    To make suggestions for audits or evaluations,
through one of the following methods:          contact us through one of the following methods:

email:    OIG_Hotline@epa.gov                  email:     OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:     1-202-566-2391
fax:      1-202-566-2599                       fax:       1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:    http://www.epa.gov/oig/contact.html#Full_Info

write:	   EPA Inspector General Hotline        write:     EPA Inspector General
          1200 Pennsylvania Avenue, NW                    1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                  Mailcode 2410T 

          Washington, DC 20460
                           Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                              14-P-0171
                                                                                                         April 10, 2014
                        Office of Inspector General


                        At a Glance

Why We Did This Review              EPA Needs to Continue to Improve Controls
The Improper Payments               for Improper Payment Identification
Elimination and Recovery Act
of 2010 (IPERA), as modified         What We Found
by the Improper Payments
Elimination and Recovery            The EPA was compliant with IPERA for the fiscal     EPA’s fiscal year 2013
Improvement Act of 2012             year 2013 reporting of improper payments.           Agency Financial Report
(IPERIA), requires that each        However, EPA regional offices were not              reported inaccurate
fiscal year the Inspector           following State Revolving Fund (SRF) standard       information for the SRF and
General of each agency              operating procedures nor completing all required    grant payment streams.
determine whether the agency        fields of the transaction testing worksheet. We
is in compliance with the law.      found several errors and inconsistencies in the EPA’s process for collecting data
In addition, the Office of          on improper payments. These errors and inconsistencies raise concerns
Management and Budget               regarding the accuracy of improper payments reported.
(OMB) requires that Inspectors
General evaluate the accuracy       The EPA also did not accurately report its recovery of SRF improper payments in
and completeness of agency          the Agency Financial Report. No formal mechanism exists to track improper
reporting and the agency’s          payment recovery through transaction testing for the Office of Water. During the
performance in reducing and         audit, the EPA verified that $722,831 of overpayments was repaid by states
recapturing improper                between March and July 2013. Thus, the EPA was not accurately reporting the
payments.                           recovery of improper payments.

Our audit focused on the            The EPA understated the improper payments for grants in the fiscal year 2013
U.S. Environmental Protection       Agency Financial Report by $16,086 because the accounts receivable and
Agency’s (EPA’s) compliance         disallowed costs were not reconciled prior to reporting improper payments.
with IPERA because OMB’s
draft implementation guidance        Recommendations and Planned Corrective Actions
states IPERIA requirements are
not effective until fiscal year     We recommend that the Assistant Administrator for Water coordinate with
2014.                               regions to address where differences occurred between improper payment
                                    testing and improper payments reported in the Agency Financial Report. In
This report addresses the           addition, we recommend providing regional staff with the current transaction
following EPA theme:                testing worksheet and directions for completing the worksheet and require
                                    regional staff to review a sample of large negative draws to identify improper
  Embracing EPA as a high          payments. We further recommend that a system be established for tracking the
   performing organization.         recovery of improper payments, and that disallowed costs in the compliance
                                    database be reconciled with accounts receivable in the financial system. The
                                    agency concurred with all of the recommendations and provided corrective
                                    actions and estimated completion dates.
For further information,
contact our public affairs office
at (202) 566-2391.                   Noteworthy Achievements

The full report is at:              The EPA took substantial corrective actions during fiscal year 2013 to bring the
www.epa.gov/oig/reports/2014/       agency back into compliance with IPERA. The EPA improved its testing of the
20140410-14-P-0171.pdf              SRF program by conducting statistical sampling of transactions, which resulted in
                                    a more accurate improper payment rate.
                                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                                       WASHINGTON, D.C. 20460



                                                                                   THE INSPECTOR GENERAL




                                             April 10, 2014

MEMORANDUM

SUBJECT:      EPA Needs to Continue to Improve Controls for Improper Payment Identification
              Report No. 14-P-0171

FROM:         Arthur A. Elkins Jr.

TO:           Maryann Froehlich, Acting Chief Financial Officer

              Nancy Stoner, Acting Assistant Administrator
              Office of Water

              Craig E. Hooks, Assistant Administrator
              Office of Administration and Resources Management

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency. This report contains findings that describe the problems the OIG
has identified and corrective actions the OIG recommends.

The offices responsible for implementing the audit recommendations include the Office of Water’s
Office of Ground Water and Drinking Water and Office of Wastewater Management; the Office of
Administration and Resources Management’s Office of Grants and Debarment; and the Office of the
Chief Financial Officer’s Office of Financial Management and Las Vegas Finance Center.

Action Required

In responding to the draft report, the agency provided a corrective action plan for addressing the
recommendations with milestone dates. Therefore, a response to the final report is not required. The
agency should track corrective actions not implemented in the Management Audit Tracking System.
This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Kevin Christensen, acting
Assistant Inspector General for Audit, at (202) 566-1007 or christensen.kevin@epa.gov; or Janet Kasper,
Director, Contracts and Assistance Agreements Audits, at (312) 886-3059 or kasper.janet@epa.gov.
EPA Needs to Continue to Improve Controls                                                                                 14-P-0171
for Improper Payment Identification



                                 Table of Contents 


Chapters
   1	   Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1         

                Background .................................................................................................       1         

                Responsible Offices ...................................................................................            2         

                Noteworthy Achievements ...........................................................................                2         

                Scope and Methodology ..............................................................................               2         


   2	   Improved Controls Needed to Identify and Report 

        SRF Improper Payments....................................................................................                  5


                Guidance for Identifying and Reporting Improper Payments .........................                                 5

                Errors and Inconsistencies Noted in Process for Collecting Data ...............                                    6

                Regional Offices Need to Follow EPA Guidance.........................................                              8

                Recommendations ......................................................................................             8

                Agency Comments and OIG Evaluation ......................................................                          9


   3    EPA Needs to Track Recovery of SRF Improper Payments...........................                                           10 


                EPA Policy Requires Receivables to Be Recorded in Financial Systems ...                                           10 

                EPA Did Not Accurately Report Recovery of Overpayments ......................                                     10 

                Recommendation ........................................................................................           11         

                Agency Comments and OIG Evaluation ......................................................                         11 


   4	   EPA Needs to Reconcile Grant Reporting Systems 

        Prior to Issuing AFR ..........................................................................................           12 


                Guidance for Grant Improper Payment Reporting .......................................                             12 

                EPA Did Not Reconcile Its Databases Prior to Issuance of AFR ................                                     13 

                Improved Process Needed in Compiling Improper Payments .....................                                      14 

                Recommendation ........................................................................................           14             

                Agency Comments and OIG Evaluation ......................................................                         14


   Status of Recommendations and Potential Monetary Benefits..............................                                        15




Appendices
   A	   Agency Response to Draft Report                                                                                           16     


   B    	Distribution                                                                                                             19

                                           Chapter 1

                                            Introduction
Purpose
                 The objective of the audit was to evaluate the U.S. Environmental Protection
                 Agency’s (EPA’s) compliance with the Improper Payments Elimination and
                 Recovery Improvement Act of 2012 (IPERIA). However, we limited our
                 assessment to the EPA’s compliance with the Improper Payments Elimination and
                 Recovery Act of 2010 (IPERA).

Background
                 IPERA requires that each agency periodically review and identify all programs
                 and activities that may be susceptible to significant improper payments.1 The act
                 significantly increased requirements for payment recapture efforts by expanding
                 the types of payments that must be reviewed and lowering the threshold of annual
                 outlays that requires agencies to conduct payment recapture audit programs.

                 Annually, Inspectors General should evaluate (1) the accuracy and
                 completeness of agency reporting, and (2) agency performance in reducing and
                 recapturing improper payments. Also, Inspectors General are required to
                 determine whether agencies are in compliance with IPERA. Compliance means
                 that the agency has met the following requirements:

                     	 Published an Agency Financial Report (AFR) for the most recent fiscal
                        year and posted it on the agency website.
                      Conducted a program-specific risk assessment (if required).
                      Published improper payment estimates for all programs and activities
                        identified as susceptible to significant improper payments (if required).
                      Published programmatic corrective action plans (if required).
                      Published and met annual reduction targets for each program assessed to
                        be at risk and measured for improper payments.
                     	 Reported a gross improper payment rate of less than 10 percent for each
                        program and activity for which an improper payment estimate was
                        obtained and published in the AFR.




1
  The Office of Management and Budget defines “significant” as gross annual improper payments in the program
exceeding (1) both 2.5 percent of program outlays and $10 million of all program or activity payments made during
the fiscal year reported, or (2) $100 million (regardless of the improper payment percentage of total program
outlays).


14-P-0171                                                                                                       1
Responsible Offices

             The offices responsible for implementing the audit recommendations include:

                    The Office of Water’s Office of Ground Water and Drinking Water
                     and Office of Wastewater Management.
                    The Office of Administration and Resources Management’s Office of
                     Grants and Debarment.
                    The Office of the Chief Financial Officer’s (OCFO’s) Office of
                     Financial Management and Las Vegas Finance Center.

Noteworthy Achievements
            The EPA took substantial corrective actions during fiscal year (FY) 2013 to bring
            the agency back into compliance with IPERA. The EPA improved its testing of
            the State Revolving Fund (SRF) program by conducting statistical sampling of
            transactions, which resulted in a more accurate improper payment rate.

Scope and Methodology
            We conducted this audit from December 2013 through February 2014 in
            accordance with generally accepted government auditing standards, issued by
            the Comptroller General of the United States. Those standards require that we
            plan and perform the audit to obtain sufficient, appropriate evidence to provide
            a reasonable basis for our findings and conclusions based on our audit objective.
            We believe that the evidence obtained provides a reasonable basis for our
            findings and conclusions based on our audit objective.

            The objective of the audit was to evaluate the EPA’s compliance with the
            Improper Payments Elimination and Recovery Improvement Act of 2012
            (IPERIA). However, Office of Management and Budget’s (OMB) draft guidance
            on the implementation of IPERIA states that the requirements were not effective
            until FY 2014. Since EPA relied upon the guidance from OMB, it did not
            implement all the requirements of IPERIA in 2013. Therefore, we limited our
            assessment to EPA compliance with the Improper Payments Elimination and
            Recovery Act of 2010 (IPERA). We will evaluate the EPA’s implementation of
            IPERIA in 2014.

            To determine whether the EPA complied with IPERA, we reviewed the EPA’s
            FY 2013 AFR and accompanying materials. For each payment stream, we
            reviewed the internal control review workpapers from the Office of Inspector
            General (OIG) audit of the FY 2013 financial statements. We interviewed
            agency staff at the EPA headquarters from the OCFO, the Office of Grants and
            Debarment, and the Office of Water. We also interviewed OCFO staff from the
            Research Triangle Park and Las Vegas Finance Centers.


14-P-0171                                                                                       2
            We gained an understanding of the processes, procedures and controls used for
            IPERA reporting across the four payment streams—SRF, grants, commodities and
            contracts. We traced judgmental samples of reported improper payments from
            each payment stream back to source documentation to test the accuracy of
            improper payments reporting in the EPA’s FY 2013 AFR.

               	 For the SRF payment stream, we identified the universe of all draws with
                   a negative value from October 1, 2011, to September 30, 2012, and
                   judgmentally selected a sample of the six highest valued draws for review,
                   worth a total of $32,723,118. This review was performed to look for
                   transactions that the EPA did not report as improper payments.

               	 Also for the SRF payment stream, we traced judgmental samples of
                  reported improper payments to source documentation to test the accuracy
                  of improper payments reporting in the EPA’s FY 2013 AFR. For the
                  Clean Water State Revolving Fund (CWSRF), we judgmentally selected
                  the two states (Rhode Island and North Carolina) with the largest reported
                  improper payment amounts, which resulted in testing 91.6 percent of the
                  $1 million reported as CWSRF improper payments. We also judgmentally
                  selected the two states (California and Texas) with the largest amounts of
                  Drinking Water State Revolving Fund (DWSRF) improper payments
                  reported, which resulted in our testing 95.2 percent of the $11.1 million of
                  improper payments.

               	 We judgmentally selected six of 25 reported grant improper payments.
                  We selected the largest improper payments amounts by category. The
                  sample accounted for $193,406 of $365,463 of unallowed costs identified
                  as improper payments, or 53 percent of the EPA’s reported grant improper
                  payments for calendar year 2012.

               	 We selected all contract improper payments greater than $800 and verified
                  that the sample group contained at least one sample from each of the
                  detection sources. The resulting sample size was 14 payments totaling
                  $404,090, representing 99.3 percent of contract improper payments.

               	 For commodities, we selected all improper payments greater than $1,000
                  and verified that the sample group contained at least one sample from each
                  detection source. The resulting sample size was 27 improper payments
                  totaling $132,513, or 84.5 percent of the total reported improper payments
                  for commodities.

            In addition to selecting a sample of transactions reported as improper payments,
            we also reviewed a judgmentally selected sample of program evaluation reports
            (PERs) and transaction testing worksheets provided by the EPA to confirm the
            accuracy and legitimacy of the improper payments. We also reviewed grant


14-P-0171                                                                                      3
            accounts receivable for receivables that were the result of improper payments
            and compared this information with the EPA’s FY 2013 AFR.

            We used information from several EPA data systems during our work, including
            the Integrated Grants Management System (compliance database), Contract
            Payment System, Small Purchase Information Tracking System, and Compass
            Data Warehouse. We verified the information in the systems to source
            documentation and concluded that the information provides a reasonable basis for
            our findings and conclusions.

            Prior Audit Coverage

            During the current audit, we followed up on agency corrective actions from the
            EPA OIG Report No. 13-P-0175, Corrective Action Plan Needed in Order to
            Fully Comply With the Improper Payments Elimination and Recovery Act,
            issued March 11, 2013. We found that all actions had been taken.

            Section 5 of IPERIA provides for the implementation of the do not pay initiative.
            In December 2012, The OIG completed its review of the EPA’s implementation
            of the do not pay requirements outlined in IPERIA. Our review did not identify
            any material weaknesses in EPA’s controls as they are being currently
            implemented.




14-P-0171                                                                                       4
                                   Chapter 2

            Improved Controls Needed to Identify and 

                Report SRF Improper Payments 

             The EPA needs to improve controls for identifying and reporting improper
             payments for the SRF payment stream. An improper payment includes any
             payment that should not have been made or was made in an incorrect amount.
             We found that:

                     The improper payment data collection process contained several errors
                      and inconsistencies.
                     Information reported in transaction testing worksheets did not always
                      match improper payment information reported in the AFR.

             The EPA’s standard operating procedure (SOP) for SRF programs states that the
             EPA regional offices identify improper payments in the PER. The SOP also
             contains a transaction testing worksheet that regional offices are to complete
             when testing transactions. Regional offices were not following the EPA’s SOP
             nor completing all required fields of the transaction testing worksheet. Also,
             misunderstandings over what constituted an improper payment led to reporting
             errors. The errors and inconsistencies we identified raise concerns regarding the
             accuracy of the improper payments reported and the EPA’s controls to identify
             improper payments for the SRF payment streams.

Guidance for Identifying and Reporting Improper Payments
             IPERA’s definition of an improper payment includes any payment that should not
             have been made or that was made in an incorrect amount under statutory,
             contractual, administrative or other legally applicable requirements. Incorrect
             amounts are overpayments or underpayments that are made to eligible recipients.
             OMB Memorandum M-11-16 further identifies an improper payment as any
             payment that was made to an ineligible recipient or for an ineligible good or
             service, or payments for goods or services not received. In addition, when an
             agency’s review is unable to discern whether a payment was proper as a result of
             insufficient or lack of documentation, this payment must also be considered an
             improper payment.

             The EPA’s SOP for SRF programs states that regions identify the improper
             payment in the PER. The PER should include the date, amount and grant number
             of all cash draws tested, the portion to be improper (and why), and the corrective
             action planned or taken. The SOP includes a transaction testing worksheet that
             regional offices should complete when testing transactions.




14-P-0171                                                                                         5
Errors and Inconsistencies Noted in Process for Collecting Data

            We found several errors and inconsistencies in the EPA’s process for collecting
            data on improper payments in the SRF payment streams. For example, three of
            the four regional PERs reviewed where the EPA identified improper payments did
            not identify information required by the EPA’s SOP:

                 	 The Texas DWSRF PER did not mention improper payments, although
                    the EPA identified numerous improper payments via transaction testing.
                 	 In North Carolina, the CWSRF PER stated that improper payments were
                    identified, but did not report the value of improper payments nor identify
                    the specific transactions that contained improper payments.
                 	 In the Rhode Island CWSRF PER, neither the grant number nor the
                    improper payment associated with each tested transaction was identified,
                    although the total value of improper payments was identified.

            The EPA’s transaction testing worksheets—used by regional offices to document
            regional review of cash draws—were not being used, contained inconsistencies, and
            did not answer all questions. Regions also used different versions of the worksheets.
            Differences existed between what was identified in transaction testing worksheets
            and what the EPA reported as an improper payment in the AFR. For example:

                	 The CWSRF transaction testing worksheets for North Carolina did not
                   identify an improper payment, although the EPA included a $217,000
                   improper payment for North Carolina in its estimate of total improper
                   payments for the CWSRF program. During our review, the EPA agreed
                   this was not an improper payment.

                	 Improper payments reported in the EPA’s FY 2013 AFR for Texas
                   differed from improper payments identified by Region 6 on transaction
                   testing worksheets. The Office of Water identified additional improper
                   payments after conducting a review of Region 6’s transaction testing for
                   the DWSRF program.

            We identified over $30 million in improper payments by reviewing negative cash
            draws listed in Compass, as shown in OIG Table 1. These negative cash draws
            were refunds of a previous erroneous cash draw. The EPA did not report these
            amounts as improper payments.

            OIG Table 1: Improper payments discovered 

            by reviewing negative cash draws

            State            Improper payment amount
            Florida                 $12,050,224
            Florida                  12,050,224
            Florida                   6,373,122
            Total                   $30,473,570
            Source: OIG analysis.



14-P-0171                                                                                     6
            We found two improper payment reporting errors:

                	 AFR Table 1 overstated improper payments due to the $217,000 error in
                   North Carolina identified. This error represented 21 percent of total
                   improper payments identified through statistical sampling for the CWSRF
                   program, and therefore resulted in revisions to the error rate and improper
                   payments reported in AFR Table 1. See OIG Table 2 for adjusted
                   improper payment percentages.

                	 In ARF Table 1, the EPA reported the over- and underpayments for the
                   DWSRF program based on the results of statistical sampling rather than
                   the extrapolated overpayments and underpayments.

            OIG Table 2 below shows the values as reported in AFR Table 1 and the correct
            values. The numbers crossed out are the incorrectly reported numbers and the
            numbers below are the correct numbers.

            OIG Table 2: Revisions to AFR Table 1
                        FY 2013 Improper       FY 2013 Improper         FY 2013         FY 2013
            Program     Payment Percent        Payment Percent        overpayment    underpayment
            CWSRF                    .73%                   $15.6            $11.1            $4.5

                                     .68%                   $14.7             $9.7            $5.0
            DWSRF                   4.06%                   $55.2            $10.0            $1.1

                               No Change               No Change             $49.7            $5.5
            Source: FY 2013 AFR and OIG analysis.

            In AFR Table 4, the EPA incorrectly reported the months outstanding for both
            CWSRF and DWSRF overpayments based on the cash draw date rather than
            when the overpayment was identified via transaction testing. OIG Table 3 below
            shows the corrected values for AFR Table 4. The numbers crossed out are the
            incorrectly reported numbers and the numbers below those crossed-out numbers
            are the correct numbers.

            OIG Table 3: Revisions to AFR Table 4
            Program     0-6 months     6 months – 1 year          Over 1 year
            CWSRF                $0                   $0           $1,025,022

                             $808,022                      $0               $0
            DWSRF                  $0                      $0       $4,898,804

                              $65,955               $4,832,849             $0
            Source: FY 2013 AFR and OIG analysis.




14-P-0171                                                                                       7
Regional Offices Need to Follow EPA Guidance
            Improper payments for the SRF programs were inaccurately reported for several
            reasons:

               	 EPA regions did not follow the EPA’s SOP regarding the reporting of
                  improper payments in annual PERs, nor did they complete all required
                  fields of the transaction testing worksheet.

               	 Differences of opinion between EPA regional and headquarters staff
                  resulted in errors in the EPA’s reporting of improper payments. The Office
                  of Water headquarters’ review of regional transaction testing worksheets
                  resulted in identifying additional improper payments.

               	 Draws for a negative amount were not included in the transaction testing
                  sample. The EPA selected transactions for sampling based on a statistical
                  sample, and no negative draws were included in the sample. There was no
                  requirement for regions to consider negative draws as an indicator of a
                  previous overpayment.

               	 An oversight by EPA staff resulted in the errors made to the extrapolated
                  overpayments and underpayments to AFR Table 1. For AFR Table 4, EPA
                  staff calculated the months outstanding based on the cash draw date rather
                  than the identification date of the overpayments.

            As a result of not following established controls in the process of identifying and
            reporting improper payments information, the SRF payment streams in the EPA’s
            AFR were misstated.

Recommendations
            We recommend that the Assistant Administrator for Water:

               1.	 Coordinate with those regions where differences occurred between the
                   identification of improper payments in the transaction testing worksheets
                   and reporting in the AFR to address issues that created inconsistency for
                   future reviews.

               2.	 Provide regional staff the current transaction testing worksheet and
                   directions for completing the worksheet.

               3.	 Require regional staff to review a sample of large negative draws to
                   identify improper payments. If those transactions are not selected via
                   statistical sampling, ensure regional staff include the negative draws in the
                   supplemental reviews.



14-P-0171                                                                                      8
Agency Comments and OIG Evaluation
            The EPA agreed with the recommendations. In response to recommendation 1,
            the Office of Wastewater Management and the Office of Ground Water and
            Drinking Water will continue to work with the EPA regions to ensure improper
            payment reporting is accurate and well documented. In response to
            recommendation 2, the Office of Water provided the most current transaction
            testing worksheet to all regions on October 30, 2013. In response to
            recommendation 3, the Office of Ground Water and Drinking Water will
            investigate the five largest negative draws, which will be reported as improper
            payments if the negative draw is a correction of an improper payment. The Office
            of Ground Water and Drinking Water will also require regions to review at least
            the five largest draws, up to 10 percent of the universe of transactions in the
            future. The Office of Wastewater Management will require regions to review all
            negative draws and to report all improper payments for all state annual reviews
            remaining to be conducted this fiscal year. In future fiscal years, the Office of
            Wastewater Management will require regions to review all negative draws or, at a
            minimum, the largest five draws. The OIG believes the agency’s actions, and the
            implementation of future actions, should address the recommendations.




14-P-0171                                                                                   9
                                   Chapter 3

                EPA Needs to Track Recovery of 

                   SRF Improper Payments 

            The EPA did not accurately report SRF improper payment recovery in the
            FY 2013 AFR. The EPA identified one combined CWSRF and DWSRF
            outstanding amount in FY 2012 but did not identify how much of this amount was
            still to be recovered for each SRF program in the FY 2013 AFR. According to
            OCFO policy, all debts and accounts receivable must be recorded in the agency
            financial system upon receipt of the documents establishing the debt or accounts
            receivable. However, the SRF payment stream did not follow this policy and a
            formal mechanism to track the recovery of improper payments identified through
            transaction testing did not exist. During the audit, the EPA verified that $722,831
            of overpayments was repaid by states between March and July 2013. This amount
            should have been reported as recovered in the AFR. As a result, the EPA was not
            accurately reporting the recovery of improper payments.

EPA Policy Requires Receivables to Be Recorded in Financial Systems
            OCFO Policy Number 2540-9-P1 states that all debt/accounts receivable must be
            recorded in the agency financial system upon receipt of the documents
            establishing the debt/accounts receivable. Upon accurate entry of the appropriate
            data, the financial system automatically generates the accounting transactions
            needed to initiate the debt/accounts receivable process. Subsidiary records must
            be maintained that include the basis for the debt/accounts receivable, all
            administrative actions regarding the debt/accounts receivable, and the final
            disposition. Changes in the status of debt/accounts receivable, including appeals
            and any decisions on appeals, must be recorded promptly in the financial system.

EPA Did Not Accurately Report Recovery of Overpayments
            The EPA did not accurately record amounts recovered from improper payments in
            AFR Table 2. The EPA reported the following information (OIG Table 4)
            regarding recoveries of improper payments for the SRF payment streams.

            OIG Table 4: SRF-identified recoveries – FY 2012
                         Amount identified         Amount
                          for recovery –         recovered –
            Program        current year          current year
            CWSRF                  $1,025,022                 $0
            DWSRF                  10,032,644          5,133,840
            Source: FY 2013 AFR.




14-P-0171                                                                                   10
            The EPA reported no recoveries for the CWSRF program even though more than
            half of the funds had been recovered during FY 2013. When the EPA identifies an
            overpayment in the CWSRF program, it requests the recipient to adjust the
            amount of its next draw of federal funds by the amount of the overpayment.
            During the audit, the EPA verified that $722,831 of overpayments was repaid by
            states between March and July 2013. This amount should have been reported as
            recovered in the AFR.

            Improper payment recoveries for prior years were also not accurately recorded in
            AFR Table 2 for the SRF payment streams. In the column “Amounts Identified
            for Recovery (PYs),” the EPA indicated an “n/a” for both the CWSRF and
            DWSRF programs. The EPA reported the SRFs as one program in the FY 2012
            AFR as opposed to separate programs (CWSRF and DWSRF) in the FY 2013
            AFR. The FY 2012 AFR identified $3,525,136 as the combined amount
            outstanding.

            The EPA should have reported the amounts collected and the receivable amount
            in the FY 2013 AFR. However, the EPA did not have a formal mechanism to
            track the recovery of overpayments identified through transaction testing.
            While these are amounts owed to the EPA and meet the definition of accounts
            receivable, the EPA did not record grant offsets as accounts receivable. As a
            result, the EPA may not be ensuring that overpayments are offset by future cash
            draws.

Recommendation
            We recommend that the Chief Financial Officer and the Assistant Administrator
            for Water:

               4. Establish a system for tracking the recovery of improper payments.

Agency Comments and OIG Evaluation
            The EPA agreed with the recommendation. The Office of Water will revise the
            transaction testing SOPs to include a process for tracking the recovery of
            improper payments and maintain a tracking spreadsheet of all recoveries,
            including the origination of accounts receivable for excess funds not offset or
            returned to the EPA. The revised SOP will be distributed to the region in
            July 2014. The OIG believes the agency’s actions, when implemented, should
            address the recommendation.




14-P-0171                                                                                     11
                                             Chapter 4

       EPA Needs to Reconcile Grant Reporting Systems 

                    Prior to Issuing AFR 

                   The EPA understated the grants payment stream improper payments in the
                   FY 2013 AFR. EPA policy states originating offices are required to forward all
                   action documents that establish a debt/accounts receivable to the appropriate
                   finance center, which enters the information into the EPA’s financial system
                   (Compass). Interim guidance also requires the grants management offices to
                   ensure the compliance database is accurate and complete to report improper
                   payments. A $488,275 variance between the Integrated Grants Management
                   System (compliance database) and the Compass Database Warehouse (CDW)
                   database was not reconciled prior to issuance of the AFR. Once we brought this
                   variance to the EPA’s attention, it reconciled the databases and identified a
                   $16,086 understatement of improper payments in the AFR. Without reconciling
                   these databases, concern exists about the reliability and integrity of improper
                   payment reporting for the grants payment stream.

Guidance for Grant Improper Payment Reporting
                   EPA OCFO Procedure 1, Billing and Collecting, states the originating office
                   makes the initial determination that an amount is owed to the EPA (debt/accounts
                   receivable), prepares the applicable initial billing document, and forwards all
                   action documents that establish a debt/accounts receivable to the appropriate
                   finance center within 5 business days of receipt.2 In addition, Office of Grants and
                   Debarment’s interim guidance states:

                        	 Grants management offices are to ensure recording of the final improper
                           payment amounts and audit and review closed dates in the compliance
                           database once the Las Vegas Finance Center issues a bill and the grants
                           office has received a copy of the bill.

                        	 The National Policy, Training and Compliance Division is responsible for
                           checking the compliance database for accuracy and completeness to
                           report improper payments. The division also verifies that questioned and
                           disallowed costs recorded in the compliance database are consistent with
                           the actual compliance report and written decisions.




2
    Policy Number 2540-9-P1, Billing and Collecting (4/13/2011).


14-P-0171                                                                                            12
EPA Did Not Reconcile Its Databases Prior to Issuance of AFR
                    The EPA did not reconcile a discrepancy between the compliance and CDW
                    databases prior to issuance of the agency’s FY 2013 AFR. The compliance
                    database is the primary information source for reporting improper payments for
                    the grants payment stream. We identified a $488,275 difference between improper
                    payments reported in the AFR and the CDW database, as shown in OIG Table 5.

                    OIG Table 5: Variance between EPA’s FY 2013 AFR report and CDW database
                    Calendar year (CY) 2012 improper payments reported in FY 2013 AFR report
                    Activity category                                             Category total           Total
                    Grant enforcement actions – AFR Table 6                               $127,461
                    Grant OIG and single audits – AFR Table 6                              173,866
                    Grant adjustments – AFR Table 6                                        944,136
                    Grants-other – AFR Table 6                                             236,168
                    Improper payments (unallowable costs) – Figure A                         64,136
                    Total reported in AFR report                                                        $1,545,767
                    CY 2012 improper payments identified by category in CDW database
                    Activity category                                             Category total           Total
                    Disallowed costs – other than A-133 and OIG audits                       $5,406
                    (Compass Category 77)
                    Grant refunds non-audit (Compass Category 32)                          911,173
                    Less: appeal/suspension
                    A-133 and OIG audits (Compass Category 12)                             134,692
                    Less: appeal/suspension
                    Grant refunds – closed (Compass Category 25)                              6,221
                    Total reported in CDW database                                                        1,057,492
                    Variance between AFR report and CDW                                                   $488,275
                    Source: OIG analysis of EPA’s FY 2013 AFR and CDW database.

                    Based on our draft analysis, the OCFO performed a reconciliation to determine
                    the nature and cause for the variance. After reconciling the variance, the OCFO
                    provided the following reconciling items:

                        	 The OCFO decided to report a CY 2013 improper payment of $236,168 in
                           CY 2012 although the improper payment fell outside the reporting period.3
                        	 Timing differences from when actions occur and are recorded in the
                           compliance and CDW databases, and when improper payments are
                           identified and reported, accounted for $125,865 of the variance.
                        	 Coding issues, such as not removing the “suspension code” identifier,
                           resulted in $96,174 of the difference.


3
    For the grants payment stream, the EPA reports improper payments identified in the previous calendar year.


14-P-0171                                                                                                          13
               	 Offsets prior to issuance of a final determination letter were not recorded
                  in CDW but were reported as improper payments in the AFR and were
                  $35,077 of the variance.
               	 Grant management personal did not report $11,076 in disallowed costs to
                  the OCFO for recording, tracking and collection.

            The reconciliation resulted in identifying a $16,086 understatement of grant
            payment stream improper payments in the EPA’s FY 2013 AFR.

Improved Process Needed in Compiling Improper Payments
            The EPA did not compare the CY 2012 disallowed costs reported in the
            compliance database to the CY 2012 accounts receivable reported in CDW—the
            EPA’s financial reporting system—prior to issuing the FY 2103 AFR. The OCFO
            provided data to the Office of Administration and Resources Management’s
            Office of Grants and Debarment to review in determining improper payments for
            the grants payment stream, but that data was incomplete and as a result, not fully
            reconciled to the compliance database. As a result, the EPA understated improper
            payments by $16,086 for the grants payment stream in the FY 2013 AFR.
            Controls are strengthened by reconciling the compliance database and the CDW
            database and concern about the reliability and integrity of improper payment
            reporting will be reduced for the grants payment stream.

Recommendation
            We recommend that the Assistant Administrator for Administration and
            Resources Management and the Chief Financial Officer:

               5.	 Incorporate the reconciliation of the compliance database disallowed costs
                   and the CDW database accounts receivable into the process of identifying
                   and reporting improper payments for the grants payment stream.

Agency Comments and OIG Evaluation
            The EPA agreed with the recommendation. The Office of Administration and
            Resources Management and OCFO will ensure reconciliation of databases prior to
            submittal of future improper payment reports. The OIG believes the agency’s
            actions, when implemented, should address the recommendation.




14-P-0171                                                                                   14
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed    Agreed-To
    No.      No.                          Subject                          Status1        Action Official             Date      Amount      Amount

     1        8     Coordinate with those regions where differences          O        Assistant Administrator      09/30/2014
                    occurred between the identification of improper                          for Water
                    payments in the transaction testing worksheets and
                    reporting in the AFR to address issues that created
                    inconsistency for future reviews.

     2        8     Provide regional staff the current transaction           C        Assistant Administrator      10/30/2013
                    testing worksheet and directions for completing the                      for Water
                    worksheet.

     3        8     Require regional staff to review a sample of large       O        Assistant Administrator      09/30/2014
                    negative draws to identify improper payments. If                         for Water
                    those transactions are not selected via statistical
                    sampling, ensure regional staff include the negative
                    draws in the supplemental reviews.

     4       11     Establish a system for tracking the recovery of          O        Chief Financial Officer      07/31/2014
                    improper payments.                                                          and
                                                                                      Assistant Administrator
                                                                                             for Water

     5       14     Incorporate the reconciliation of the compliance         O       Assistant Administrator for   09/30/2014
                    database disallowed costs and the CDW database                      Administration and
                    accounts receivable into the process of identifying               Resources Management
                    and reporting improper payments for the grants                              and
                    payment stream.                                                    Chief Financial Officer




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




14-P-0171                                                                                                                                         15
                                                                                    Appendix A

                   Agency Response to Draft Report

                                    (Received March 27, 2014)


MEMORANDUM

SUBJECT:       Response to Office of Inspector General Draft Report/
               Project No. OA – FY14-0072
               “EPA Needs to Continue to Improve Controls for Improper Payment
               Identification”

FROM:          Nancy K. Stoner     /s/ Original Signed By Michael Shapiro for:
               Acting Assistant Administrator

TO:            Arthur A. Elkins, Jr.
               Inspector General

Thank you for the opportunity to respond to the issues and recommendations in the subject audit
report. Following is a summary of the U.S. Environmental Protection Agency’s overall position,
along with its position on each of the report recommendations. For the report recommendations
with which the agency agrees, we have provided high-level intended corrective actions and
estimated completion dates.

AGENCY’S OVERALL POSITION
The Agency agrees with the Office of Inspector General’s overall position on strengthening the
identification and reporting of improper payments and has taken appropriate steps to incorporate
OIG recommendations.

AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

Agreements
No.   Recommendation                       High-Level Intended          Estimated Completion by
                                           Corrective Action(s)         FY

 1    Coordinate with those regions        The Office of Wastewater     Results of the review of
      where differences occurred           Management (OWM) and the     FY13 improper payments
      between the identification of        Office of Ground Water and   will be reported to OCFO
      improper payments in the             Drinking Water (OGWDW)       in the SRF EOY reports.
      transaction testing worksheets and   will continue to work with
      reporting in the AFR to address      the Regions to ensure
      issues that created inconsistency    improper payment reporting
      for future reviews.                  is accurate and well
                                           documented.



14-P-0171                                                                                          16
 2   Provide regional staff the current     OW has provided the most           Complete. Sent to
     transaction testing worksheet and      current transaction testing        Regions on 10/30/13
     directions for completing the          worksheet to all Regions
     worksheet
 3   Require regional staff to review a     OGWDW chose the 5 largest          Complete. OGWDW
     sample of large negative draws to      negative payments and              sent the transactions to be
     identify improper payments. If         requested Regions to               reviewed to the Regions
     those transactions are not selected    investigate the reason for         on 3/6/14.
     via statistical sampling, ensure       these negative draws. They
     regional staffs include the negative   will be reported as improper
     draws in the supplemental reviews.     payments if the negative
                                            draw is a correction of an
                                            improper payment.

                                            The OGWDW will also
                                            require Regions to review
                                            negative draws in the future.
                                            The number will be                 Results of the review of
                                            determined based on the            FY13 negative draws will
                                            number of sample draws to          be reported to OCFO in
                                            be tested and the universe of      the SRF EOY reports.
                                            DWSRF negative draws for
                                            that year. It will consist of at
                                            least the 5 largest draws, up
                                            to 10% of the universe of
                                            transactions.

                                            For the CWSRF State Annual
                                            Reviews remaining to be
                                            conducted this fiscal year,
                                            OWM will require Regions to
                                            review all negative draws and
                                            to report all improper
                                            payments.

                                            In future fiscal years, OWM
                                            will require Regions to
                                            review all negative draws or,
                                            at a minimum, the 5 largest
                                            draws. The determination on
                                            the number of negative draws
                                            the Regions will be required
                                            to review will be based on the
                                            total number of negative
                                            draws each fiscal year.




14-P-0171                                                                                                    17
    4   Establish a system for tracking the   OW will revise the               The revised standard
        recovery of improper payments.        Transaction Testing standard     operating procedure will
                                              operating procedures to          be distributed to the
                                              include a process for tracking   Regions in July 2014.
                                              the recovery of improper
                                              payments and maintain a
                                              tracking spreadsheet of all
                                              recoveries, including the
                                              origination of an accounts
                                              receivable for excess funds
                                              not offset or returned to EPA.
5       The AA of Office of                   OARM and OCFO will               A reconciliation of the
        Administration and Resources          ensure reconciliation of         databases will be
        Management and the CFO,               databases prior to submittal     conducted by September
        incorporate the reconciliation of     of future improper payment       30, 2014
        the compliance database               reports.
        disallowed costs and the CDW
        database accounts receivable into
        the process of identifying and
        reporting improper payments for
        the grants payment stream.

CONTACT INFORMATION

If you have any questions regarding this response, please contact Sheila Platt on (202) 564-0686
with the CWSRF or Howard Rubin (202) 564-2051 with the DWSRF.

Attachments
cc: 	 Mike Shapiro, Deputy Assistant Administrator of Water
      Andrew Sawyers, PhD, Director, Office of Wastewater Management
      Peter Grevatt, Director, Office of Groundwater and Drinking Water
      Howard Corcoran, Director, Office of Grants and Debarment
      Stefan Silzer, Acting Director, OFS OCFO
      Jeanne Conklin, Acting Director, OFM OCFO
      Marilyn Ramos, Office of Water
      Michael Mason, Office of Water




14-P-0171                                                                                                 18
                                                                               Appendix B

                                    Distribution
Office of the Administrator
Chief Financial Officer
Assistant Administrator for Water
Assistant Administrator for Administration and Resources Management
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Chief Financial Officer
Principal Deputy Assistant Administrator for Water
Principal Deputy Assistant Administrator for Administration and Resources Management
Director, Office of Financial Management, Office of the Chief Financial Officer
Deputy Director, Office of Financial Management, Office of the Chief Financial Officer
Director, Office of Policy and Resources Management, Office of Administration and
       Resources Management
Deputy Director, Office of Policy and Resources Management, Office of Administration and
       Resources Management
Audit Follow-Up Coordinator, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of Water
Audit Follow-Up Coordinator, Office of Administration and Resources Management




14-P-0171                                                                                  19
